 DOE/IG-0565




                              SALT PROCESSING PROJECT AT THE
                                    SAVANNAH RIVER SITE
          AUDIT
         REPORT




                                         AUGUST 2002



 U.S. DEPARTMENT OF ENERGY
OFFICE OF INSPECTOR GENERAL
  OFFICE OF AUDIT SERVICES
                    U. S. DEPARTMENT OF ENERGY
                          Washington, DC 20585

                              August 27, 2002


MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                  INFORMATION: Audit Report on "Salt Processing Project at the
                          Savannah River Site"


BACKGROUND

As a result of Cold War weapons production, the Department of Energy accumulated millions
of gallons of high-level waste that now require treatment and final disposal. At the
Department's Savannah River Site, there are approximately 38 million gallons of high-level
waste, including 35 million gallons of salt waste and 3 million gallons of sludge. To treat the
salt waste, the Department originally planned to process the waste through the Savannah River
Site's In-Tank Precipitation Facility so that cesium and other radionuclides could be removed.
However, in February 1998, the Department suspended operation of the In-Tank Precipitation
Facility because it could not be operated safely.

The Department began searching for an alternative treatment technology for salt waste and, in
June 2001, issued its Salt Processing Alternatives Final Supplemental Environmental Impact
Statement. The impact statement narrowed the alternatives to four treatment technologies:
small tank precipitation; ion exchange; solvent extraction; and, direct disposal in grout. In
October 2001, the Department announced that it had selected solvent extraction as the preferred
treatment technology. Subsequently, the Department issued a request for proposal for the
design, construction, and commissioning of a Salt Waste Processing Facility to serve as a pilot
test of the solvent extraction technology and provide treatment capacity for a portion of the salt
waste.

The objective of this audit was to determine whether the solvent extraction method was the
safest and most cost-effective alternative for treating salt waste at the Savannah River Site.


RESULTS OF AUDIT

We found that the Department's preferred treatment technology, solvent extraction, was not
necessarily the safest and most cost-effective means of treating salt waste. Although all four
treatment alternatives were considered safe, in almost every scenario evaluated by the
Department the direct disposal in grout technology posed less risk to on-site workers, the
general public, and the environment. Additionally, direct disposal appeared to be more cost-
effective than solvent extraction.
                                                -2-


In its October 2001 decision, the Department rejected the direct disposal alternative because,
at that time, cesium was needed to process the Department's surplus plutonium inventory and
the direct disposal method would not separate cesium from the salt waste. Also, the
Department believed that it would be difficult to obtain regulatory approval and public support
for this alternative. However, the Department's January 23, 2002, decision to abandon
plutonium immobilization in favor of mixed oxide fuel as a method of processing and
disposing of the Department's surplus plutonium inventory essentially eliminated the need for
cesium. As a result, the Department could treat the salt waste faster and more reliably,
improve stakeholder goodwill, and save about $500 million by using the direct disposal
method, rather than the solvent extraction method.

We recommended that the Department (1) reevaluate the direct disposal in grout alternative to
confirm that it is the most cost-effective alternative for treating salt waste; (2) immediately
petition to obtain regulatory approval for the direct disposal in grout alternative if it is proven
to be the most cost-effective alternative; and, (3) not proceed beyond the conceptual phase of
the contract for the Salt Waste Processing Facility until a regulatory decision on the
acceptability of the direct disposal alternative has been obtained or until the need for this
disposal path is re-affirmed by the Assistant Secretary for Environmental Management.

MANAGEMENT REACTION

The Acting Manager, Savannah River Operations Office concurred with the overall approach
to pursue the safest and most cost-effective method for salt waste disposition, but did not
concur with our specific recommendations, nor propose any change to the current salt
processing plan. During the course of our audit, the Department acknowledged that direct
disposal might now be feasible. However, management believed that it would not be prudent
to pursue a single solution at this time because it would not leave a fallback position if direct
disposal was not approved. Management's verbatim comments have been included as an
attachment to the report.

We do not take exception to management proceeding with the conceptual design of the Salt
Waste Processing Facility as a contingency, pending the outcome of regulatory approval.
However, this approach is not without its drawbacks, specifically, potential project savings
will be reduced by about $25 million. If direct disposal is approved by the State, it is our
judgment that the Department should promptly adopt this approach or be in a position to
conclusively demonstrate that another method of disposal is preferable.


Attachment

cc:   Chief of Staff
      Under Secretary for Energy, Science and Environment
      Assistant Secretary for Environmental Management
      Acting Manager, Savannah River Operations Office
SALT PROCESSING PROJECT AT THE SAVANNAH RIVER SITE

TABLE OF
CONTENTS



                Salt Processing Alternatives

                Details of Finding ....................................................................... 1

                Recommendations and Comments ........................................... 3


                Appendices

                Management Response ............................................................. 5

                Prior Reports .............................................................................. 6

                Objective, Scope, and Methodology ........................................... 7
SALT PROCESSING ALTERNATIVES

Safe and Cost-           Solvent extraction, the Department's preferred method for treating
Effective Alternatives   Savannah River's high level salt waste, is a safe technology. However,
                         in almost every scenario evaluated by the Department in its Salt
                         Processing Alternatives Final Supplemental Environmental Impact
                         Statement (SEIS), direct disposal in grout was regarded as a safer
                         technology and posed less risk to on-site workers, the general public,
                         and the environment than solvent extraction. For example, public and
                         occupational radiological doses and health impacts were considerably
                         lower for population centers bordering the site boundary, the on-site
                         population, and population centers within 50 miles of the site for direct
                         disposal as opposed to solvent extraction. Also, direct disposal would
                         only generate an additional 2 million gallons of radioactive liquid
                         waste, whereas solvent extraction would generate an additional 12
                         million gallons. In addition, direct disposal would not generate any
                         additional mixed low-level liquid waste, whereas solvent extraction
                         would generate an additional 13,000 gallons. Finally, the direct
                         disposal method would produce the least non-radiological air emissions
                         for every air pollutant evaluated.

                         It should be noted that in its SEIS, the Department identified scenarios
                         in which direct disposal was not regarded as a safer technology than
                         solvent extraction. Radiation doses from residential scenarios at both
                         the 100 and 1,000 years post closure marks were higher for direct
                         disposal than solvent extraction. Under each of these scenarios it was
                         assumed that an individual would construct and live in a permanent
                         residence directly on the vaults where the salt waste was stored.
                         However, the Department's current plans are to maintain institutional
                         control of the Savannah River Site for at least 100 years after closure,
                         during which time the public would have no access to the vaults.
                         Further, there are currently no plans to release the site to residential
                         development even after the 100 years post closure mark. Moreover, the
                         Department does not expect any of the technologies evaluated in the
                         SEIS to result in adverse health effects over the long-term.

                         The direct disposal alternative is also the least costly of the evaluated
                         alternatives for treating salt waste. The preliminary cost estimates for
                         the design and construction of the four alternatives considered in the
                         SEIS ranged from $900 million for direct disposal to $1.4 billion for
                         solvent extraction. Although Department officials do not believe these
                         estimates are precise enough to be used for decision-making purposes,
                         they are the best estimates available and they indicate that direct
                         disposal would be less expensive than solvent extraction.



Page 1                                                                         Details of Finding
Re-evaluation of the    The Department rejected the direct disposal alternative because there
Preferred Alternative   was a perceived need for the cesium that was in the salt waste, and
                        the cesium could not be extracted using the direct disposal method.
                        The Department planned to use the separated cesium as an essential
                        part of its Plutonium Immobilization Project. However, the need for
                        separating cesium was recently eliminated when the Secretary of
                        Energy announced, on January 23, 2002, that the Department would
                        dispose of surplus plutonium by converting it into mixed oxide fuel,
                        effectively eliminating the need for the Plutonium Immobilization
                        Project.

                        Department officials also believed it would be difficult to obtain
                        regulatory approval and public support for the direct disposal
                        alternative. However, no actions were taken to formally petition for
                        regulatory approval or to obtain public support for direct disposal.

                        During the audit, we interviewed South Carolina Department of
                        Health and Environmental Control officials concerning the direct
                        disposal alternative. They stated that they would be willing to
                        consider the possibility of direct disposal as the preferred alternative.
                        However, the Department would need to complete, and the State
                        thoroughly review, an application prior to making a decision to either
                        approve or disapprove the direct disposal alternative. One of the
                        main issues to be addressed during the review would be the long-
                        term integrity of the Saltstone vaults, considering the chemical and
                        radioisotope constituents that would be present in the salt waste.

                        The Office of Inspector General is also aware that litigants in a
                        recent lawsuit filed against the Department contend that all tank
                        waste must eventually be disposed of in a geologic repository. The
                        outcome of this case may bear directly in future decisions regarding
                        salt waste at Savannah River.

Benefits from Direct    The Department could treat the Savannah River Site's salt waste
Disposal                faster and more reliably, and save up to $500 million by using direct
                        disposal rather than solvent extraction.

                        Solvent extraction must cease operation when Defense Waste
                        Processing Facility (DWPF) is not operating, but direct disposal
                        could continue to operate regardless of DWPF outages. Further,
                        direct disposal should require less time for construction and start-up.
                        It would also use proven, more reliable technology. In fact, the
                        solvent extraction technology has only been tested on a small


Page 2                                                                      Details of Finding
                  laboratory scale and would require further testing on a pilot project
                  scale prior to achieving full-scale operations. In contrast, direct
                  disposal can achieve full-scale operations, without the need for a
                  pilot project, because it relies on proven technology to pour concrete
                  into large vaults.

                  The direct disposal alternative may also afford the Department an
                  opportunity to improve its stakeholder goodwill. In the past, the
                  Savannah River Operations Office has experienced setbacks in its
                  plans to treat the high-level waste stored at the site. These
                  interruptions reduced stakeholders' confidence in the Department's
                  commitment to environmental cleanup efforts. For example,
                  operation of the In-Tank Precipitation Facility was suspended
                  because it could not be operated safely. Further, the Department
                  temporarily suspended operation of its Consolidated Incineration
                  Facility, pending identification of a more cost effective alternative
                  treatment technology. Using the direct disposal alternative to treat
                  salt waste could help to demonstrate the Department's commitment
                  to environmental cleanup efforts that promote maximum safety and
                  reliability.

                  Finally, about $500 million could be saved by using the direct
                  disposal method instead of the solvent extraction method to treat the
                  Savannah River Site's salt waste.

RECOMMENDATIONS   We recommend that the Manager, Savannah River Operations
                  Office:

                       1. Reevaluate the direct disposal alternative to confirm that it
                          is the most cost-effective alternative for treating salt waste;

                       2. Immediately petition to obtain regulatory approval and
                          public support for the direct disposal alternative if it is
                          proven to be the most cost-effective alternative; and,

                       3. Not proceed beyond the conceptual phase of the contract
                          for the Salt Waste Processing Facility until a regulatory
                          decision on the acceptability of the direct disposal
                          alternative has been obtained or until the need for this
                          disposal path is re-affirmed by the Assistant Secretary for
                          Environmental Management.




Page 3                                          Recommendations and Comments
MANAGEMENT AND     Management concurred with the overall approach to pursue the
AUDITOR COMMENTS   safest and most cost-effective method to disposition salt. However,
                   management did not concur with our specific recommendations or
                   propose any changes to its current salt processing plan. The
                   Department's verbatim comments can be found in Appendix 1.

                   The Office of Inspector General does not take exception to
                   management proceeding with the conceptual design of the Salt
                   Waste Processing Facility as a contingency. However, management
                   did not provide detailed reasons for not reevaluating the direct
                   disposal option. Instead, management chose not to change its current
                   salt processing plan and has not explained why it will not consider a
                   safe processing alternative that could potentially save about $500
                   million.




Page 4                                           Recommendations and Comments
Appendix 1




Page 5       Management Response
Appendix 2


                                         PRIOR REPORTS

   The Department of Energy's Strategy for Disposal of Plutonium, (ER-L-02-01, February 2002).
   The audit concluded that the Department's plan to immobilize some plutonium and convert the
   rest to reactor fuel was not the most cost-effective approach for disposing of surplus plutonium.
   Converting surplus plutonium into fuel could eliminate the need for an immobilization facility
   and save at least $1.7 billion.

   High Level Waste System at the Savannah River Site, (ER-L-00-05, June 2000). The audit
   concluded that the Department was operating the system at a level expected to meet its cleanup
   goals. Meeting these goals, however, required adherence to a strict schedule of critical-path
   projects, including initiating full-scale processing of salt waste no later than 2010, and
   maintaining adequate space in underground waste storage tanks to receive and process high-
   level waste.




Page 6                                                                                      Prior Reports
Appendix 3

OBJECTIVE     The objective of this audit was to determine whether the solvent
              extraction method was the safest and most cost-effective alternative for
              treating salt waste at the Savannah River Site.

SCOPE         The audit was performed from October 18, 2001, to March 1, 2002, at
              the Savannah River Site near Aiken, South Carolina. The audit covered
              a review of the four salt waste treatment alternatives evaluated by the
              Department in its Salt Processing Alternatives Final Supplemental
              Environmental Impact Statement (SEIS). The issues identified in the
              report should be considered by the Department when preparing its
              yearend assurance memorandum.

METHODOLOGY   To accomplish the audit objective, we:

                  •   Reviewed Departmental and South Carolina regulatory
                      requirements for treating salt waste and hazardous waste;

                  •   Reviewed the Department's SEIS for treating salt waste;

                  •   Interviewed South Carolina Department of Health and
                      Environmental Control officials to determine state regulatory
                      requirements for treating salt waste; and,

                  •   Compared the safety, reliability, and cost-effectiveness of both
                      the solvent extraction and direct disposal in grout alternatives.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of Departmental and regulatory policies,
              procedures, and performance measures related to the treatment of salt
              waste. Because our review was limited, it would not necessarily have
              disclosed all internal control deficiencies that may have existed at the
              time of our audit. We did not rely on computer generated data during
              this audit.

              In accordance with the Government Performance and Results Act of
              1993, the Department has established some performance measures for
              its Management and Operating contractor, Westinghouse Savannah
              River Company (Westinghouse) related to high-level waste. The
              measures involved increasing the amount of tank space available for the



Page 7                                         Objective, Scope, and Methodology
Appendix 3 (continued)

                     effective operation of the High Level Waste System at the Savannah
                     River Site and initiating the waste-incidental-to-reprocessing
                     determination process for treating salt waste. At the time of our audit,
                     Westinghouse appeared to be making progress towards achieving these
                     measures.

                     Management waived the exit conference on August 13, 2002.




Page 8                                               Objective, Scope, and Methodology
                                                                             IG Report No. : DOE/IG-0565

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
